                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: A13110088                                                                       Page 1 of 1



                Our office received an allegation of plagiarism in an NSF proposal. 1 We found material
         copied from a website related to a working group? A person named in the proposal (Colleague) 3
         was involved in the working group, but was not named on the proposal's cover sheet.

                 We contacted the PI4 about the allegation. He said the Colleague was responsible for
         inserting the allegedly copied material, but said the Colleague had authored the material for the
         working group. He provided a letter from another working group member confirming his
         assertion.

                We will send the PI a Questionable Research Practice letter reminding him of his
         responsibility to acknowledge individuals who author proposals he submits.

                   This case is closed with no further action taken.




NSF OIG Form 2 (11102)
